No. 19-82
IN THE

Supreme Court of the United States

PAUL V. CANNON,
Petitioner,
v

BANK OF AMERICA, NATIONAL ASSOCIATION; MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.; BANK OF NEW YORK MELLON AS TRUSTEE
FOR CWABS ASSET-BACKED CERTIFICATES TRUST 2007-9, AND
SPECIALIZED LOAN SERVICING LLC,
Respondents.

PROOF OF SERVICE

I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this fourteenth day of August 2019, I have served three (8) true
copies of the Opposition to Petition for Writ of Certiorar for Bank of
New York Mellon as Trustee for CWABS Asset-Backed Certificates
Trust 2007-9, and Specialized Loan Servicing LLC by priority mail,
postage prepaid, addressed as follows:

Paul V. Cannon

256 Winchester Street
Newton, MA 02461
(617) 332-8291

Signed under the pains and penalties of perjury,

Oyo
CUCM -

      

Rita L, Hemenway

.£.

Ae

    
